Nos. 20-543 & 20-544
IN THE

~uprtme Olourt of ±4t ~nitto ~tatts
JANET L. YELLEN, SECRETARY OF THE TREASURY,
Petitioner,
v.
CONFEDERATED TRIBES OF THE CHEHALIS
RESERVATION, ET AL.,
Respondents.
ALASKA NATIVE VILLAGE CORPORATION
ASSOCIATION, INC., ET AL.,
Petitioners,
v.
CONFEDERATED TRIBES OF THE CHEHALIS
RESERVATION, ET AL.,
Respondents.
On Writ of Certiorari to the
United States Court of Appeals for the
District of Columbia Circuit
RESPONSE OF RESPONDENTS CONFEDERATED TRIBES
OF THE CHEHALIS RESERVATION, ET AL. TO UTE INDIAN TRIBE’S
MOTION REGARDING ORAL ARGUMENT

1.

This response to the Ute Indian Tribe of the Uintah and Ouray

Reservation’s motion for divided argument is filed on behalf of the sixteen
signatories to the Brief of Respondents Confederated Tribes of the Chehalis
Reservation, et al.

2.

This case presents the question whether Alaska Native Corporations

(ANCs) qualify as “Indian Tribes” under the Indian Self-Determination and
Education Assistance Act (ISDA), and hence under Title V of the Coronavirus Aid,
Relief, and Economic Security Act (CARES Act). Respondents in this case are
seventeen federally recognized Indian tribes in Alaska and the Lower 48 states.
Sixteen of the seventeen tribes filed a single brief arguing that ANCs do not qualify
as “Indian Tribes” under ISDA. The seventeenth tribe, the Ute Indian Tribe, filed a
separate brief. There, the Ute Indian Tribe incorporated by reference portions of
the sixteen tribes’ brief addressing the question presented. Ute Br. 33. In part of
its brief, however, the Ute Indian Tribe also argued that ANCs (or their corporate
boards of directors) are not “recognized governing bod[ies]” of Indian Tribes under
Title V’s definition of “Tribal government.” Id. at 21-27. That argument, which the
court of appeals did not reach, is grounded in the requirement that any Indian
group must be federally recognized in order to qualify as an “Indian Tribe” or
“Tribal government,” id. at 10-16, 19-21—a requirement that is addressed at length
in the sixteen tribes’ brief, Conf. Tr. Br. 25-37.
3.

In the view of the undersigned sixteen respondents, divided argument

is not necessary. As the Ute Indian Tribe recognizes, there is no divergence in the
position of the respondents on “the [ISDA] statutory interpretation issues,” Mot. 2,
that are the subject of the question presented. Divided argument time would
detract from respondents’ ability to answer fully the Court’s questions regarding
2

those issues. While the Ute Indian Tribe’s additional argument reinforces why
respondents are correct on the question presented, divided argument would accord
disproportionate time to that argument, to which the government devoted just a
footnote, Gov’t Br. 40 n.8; see also ANC Br. 46-49, and which is fully addressed in
the Ute Indian Tribe’s brief.
4.

Should the Court conclude that divided argument is warranted, the

undersigned respondents respectfully request that the Court allot 20 minutes to the
group of sixteen respondents and 10 minutes to the Ute Indian Tribe.
Respectfully submitted,
KANNON K. SHANMUGAM
PAUL, WEISS, RIFKIND, WHARTON &
GARRISON LLP
2001 K Street, NW
Washington, DC 20006
(202) 223-7300
kshanmugam@paulweiss.com

RIYAZ A. KANJI
KANJI & KATZEN, P.L.L.C.
303 Detroit Street, Ste. 400
Ann Arbor, MI 48104
(734) 769-5400
rkanji@kanjikatzen.com
CORY J. ALBRIGHT
KATIE E. JONES
LYNSEY R. GAUDIOSO
KANJI & KATZEN, P.L.L.C.
811 1st Avenue, Ste. 630
Seattle, WA 98104
(206) 344-8100
calbright@kanjikatzen.com
kjones@kanjikatzen.com
lgaudioso@kanjikatzen.com

Co-Counsel for Confederated Tribes of the Chehalis Reservation and Tulalip
Tribes
Counsel for Akiak Native Community, Aleut Community of St. Paul Island,
Asa’carsarmiut Tribe, and Houlton Band of Maliseet Indians
JOHN E. ECHOHAWK
NATIVE AMERICAN RIGHTS FUND
1506 Broadway
Boulder, CO 80302

ERIN C. DOUGHERTY LYNCH
MATTHEW N. NEWMAN
WESLEY JAMES FURLONG
MEGAN R. CONDON
3

(303) 447-8760
jechohawk@narf.org

NATIVE AMERICAN RIGHTS FUND
745 West 4th Avenue, Ste. 502
Anchorage, AK 99501
(907) 276-0680
dougherty@narf.org
mnewman@narf.org
wfurlong@narf.org
mcondon@narf.org

Counsel for Arctic Village Council, Native Village of Venetie Tribal
Government, Nondalton Tribal Council, and Rosebud Sioux Tribe
NICOLE E. DUCHENEAUX
BIG FIRE LAW & POLICY GROUP LLP
1404 Fort Crook Road South
Bellevue, NE 68005
(531) 466-8725
nducheneaux@bigfirelaw.com
Counsel for Cheyenne River Sioux
Tribe

LISA KOOP GUNN
Senior Attorney, Tulalip Tribes
6406 Marine Drive
Tulalip, WA 98271
(206) 683-5667
lkoop@tulaliptribes-nsn.gov
Counsel for Tulalip Tribes

HAROLD CHESNIN
Lead Counsel for the Tribe
420 Howanut Road
Oakville, WA 98568
(360) 529-7465
hchesnin@chehalistribe.org
Counsel for Confederated Tribes of
the Chehalis Reservation

DOREEN MCPAUL
Attorney General
PAUL SPRUHAN
Assistant Attorney General
JASON SEARLE
Navajo Nation Department of Justice
P.O. Box 2010
Window Rock, AZ 86515
(928) 871-6345
dmcpaul@nndoj.org
pspruhan@nndoj.org
jasearle@nndoj.org

BRADLEY G. BLEDSOE DOWNES
General Counsel
2332 Howland Hill Road
Crescent City, CA 95531
(707) 465-2610
bdownes@elk-valley.com
Counsel for Elk Valley Rancheria,
California
LORI BRUNER
Quinault Office of the Attorney
General
136 Cuitan Street
Taholah, WA 98587
(360) 276-8215, Ext. 1403

Counsel for Navajo Nation
ERIC DAHLSTROM
APRIL E. OLSON
ROTHSTEIN DONATELLI LLP
1501 W. Fountainhead Parkway
Ste. 360
Tempe, AZ 85282
(480) 921-9296
edahlstrom@rothsteinlaw.com
aeolson@rothsteinlaw.com

4

LBruner@quinault.org
Counsel for Quinault Indian Nation
ALEXANDER B. RITCHIE
Attorney General
P.O. Box 40
16 San Carlos Avenue
San Carlos, AZ 85550
(928) 475-3344
alex.ritchie@scat-nsn.gov
Counsel for San Carlos Apache
Tribe

RICHARD W. HUGHES
DONNA M. CONNOLLY
REED C. BIENVENU
ROTHSTEIN DONATELLI LLP
1215 Paseo de Peralta
Santa Fe, NM 87501
(505) 988-8004
rwhughes@rothsteinlaw.com
dconnolly@rothsteinlaw.com
rbienvenu@rothsteinlaw.com
Counsel for Pueblo of Picuris
Co-Counsel for Navajo Nation

APRIL 7, 2021

5

